..

'

'S .
nt
7

20-•

Supreme Court of the United States

■

. Judith Knight and
Phoenix Central, Inc,
Petitioners

FILED

m 15 m

)
) •

OTFHGE OF TIME <Cil0?[K

)

J

)
V.

i

)
)

t

)
Ward & Glass
)
Stanley Ward, and
)
John or Jane Doesl-10
)
Individuals or Corps
v
)
Respondents
On Petition for Rehearing
to thfe Court of Civil Appeals of State Oklahoma

PETITION FOR WRIT OF CERTIORARI
V.1

Judy Knight
1010 N. Flood
Norman, Oklahoma 73069
(405) 447-1010
MinilQ10@AOL.COM
Appearing Pro Se

RECEIVED
DEC - 8 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

1

QUESTIONS PRESENTED FOR REVIEW
Introduction:
, On 5/23/2019 Petitioner filed a Motion for Enlargement of Time
To File A Petition For Rehearing thought to be due on Saturday 6/1, (i.e.

«

Monday 6/3) with attached Affidavit and an Application to Exceed the
Page Limit.
Having known that more than 100 such extension requests had been
allowed to attorneys in the underlying cases and none denied she had no
1

expectations the requests would not be approved.

i

When no answer was received by the 30th, Petitioner spent the
weekend deleting text to fit into the statutory page limit and filed the

r

Petition on Monday, June 3rd .
These Motions were denied by the Court but not until July 11, 2019.
On July 30th Petitioner mailed a document erroneously entitled

■“X

“Petition for Rehearing” that presented the following questions to be
answered which are now copied here. See Appendix for the complete
arguments.

"3

A

V

'3

11

QUESTIONS TO BE ANSWERED
1)

Whether the failure of this Court to timely respond to the Motions

impeded Appellant's ability to present their case thereby denying
Appellants constitutional right to access to the Courts and of due process
2)

Whether the trial court properly; considered all conditions

presented that prompted the Motions in seemingly determining there
was not sufficient cause to establish entitlement to approval of either or

- :A
«

both of the Motions
3)

Whether denial of either Motion was improper because Oklahoma

.• -sV*

t-*"

law is clear that Appellant was entitled to make those Motions and did so,—
based on information and belief and expectations derived from prior

f

\

■m w*S

observation of actions taken in the previous and underlying actions and
experience — within adequate time for this Court to respond.
4)

Whether the resultant injury i.e denial of Petition for Rehearing,

.%

M

<£

caused by this lack of action was a denial of Appellants constitutional right
to access to the Courts and of due process
5)

Whether COCA’s dismissal and striking of attempt to bring

attention to the error on August 2, 2019 (although mistitled) is further proof
of failure to review documents submitted.

/i

t

'■J

111

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.
Related casesKnight, et al v Ward, et al Court of Civil Appeals of Oklahoma
Judgment No 11831 entered 2/26/18
Knight,; et al v Ward, et al Court of Civil Appeals of Oklahoma No.
114172 Judgment entered 8/5/15
Knight, et al v Ward, et al District Court of Cleveland County
Judgment entered, CG-2012-1540
CORPORATE DISCLOSURE
Rule 29.6 It is believed that there is no parent or publicly held
company owning 10% or more of any corporation's stock.

\

1
IV

!

Contents

OPINIONS BELOW.

1

BACKGROUND

1

JURISDICTION

8

STATUTORY PROVISIONS INVOLVED

10

CONSTITUTIONAL PROVISIONS

11

STATEMENT OF THE CASE

13

REASONS FOR GRANTING THE WRIT

19

CONCLUSION

22

TABLE OF APPENDICES

la

r4'

v! ’

n

i

f

V

TABLE OF AUTHORITIES
Cases

Bose Corp. v. Consumers Union of United States, Inc., 466 U.S. 485, at
501, 104 S.Ct. 1949, at 1959, 80 L.Ed.2d 502 (1984)
Jackson v. Okla. Mem’l Hosp., 1995 OK 112

5, 909 P.2d 765

19
10

Johnson v. Robison, 415 U.S. 361, 364 n. 4, 94 S.Ct. 1160, 39 L.Ed.2d 389
(1974)

11

Kotteakos v. United States, 328 U.S. 750, (1946)

11

Minter, 2001 OK 69 at n. 66, 37 P.3d 763

12

Oklahoma Ass'n for Equitable Taxation v. City of Oklahoma City,
1995 OK 62, 901 P.2d 800, n. 29, 805, cert, denied, 516 U.S. 1029, 116
S.Ct. 674, 133 L.Ed.2d 523 (1995)

11

United States v. Johnson, 594 F.2d 1253 (9th Cir.1979) cert, denied,

:r

444 U.S. 964, 100 S.Ct. 451, 62 L.Ed.2d 376 (1979)

11

United States v. Rivera, 900 F.2d 1462 (10th Cir.1990)

11

Washington v. Texas, 388 U.S. 14, 19, 87 S.Ct. 1920, 18 L.Ed.2d 1019
(1967)

• ri.

11

Statutes
12 O.S. § 651

6

12 O.S. § 1.177(B)

8

12 O.S. § 655

6

<1

1
VI

12 O.S. §1031

6

12 O.S. §2006

6

28 U. S. C. § 1257(a).

9

28 U.S.C. § 1254(1).

8

28 U.S.C. § 1447(d)

8

Other Authorities
Developments in the Law — The Interpretation of State
Constitutional Rights, 95 Harv. L. Rev. 1324, 1473 (1982)

12

Rules
Fed. Rule App. Proc. 26(b)

10

Fed.R.Evid. 103(a)

11

McSPADDEN V. MAHONEY 1964 OK 260 402 P.2d 656 see dissent

V

<

I

1

OPINIONS BELOW
All the orders are unreported.
The opinions of the Court of Appeals and Supreme Court of the State of
Oklahoma that gives rise to this Petition are unreported as Judy Knight, et
al, Appellants, v. Stan Ward and Ward and Glass, LLC, et al, Appellees,
Nos. 117492
That Case is an appeal of the results of the below (in chronological order):
BACKGROUND
After having plodded through years of litigation and multiple trips to
Appeals and back again on matters that clearly should not been needed, it
is disheartening to face litigation over a request for an extension of time, a
procedure which is not unfamiliar to either attorneys or courts

■«-

At the heart of which is a ruling in favor of respondent in spite of the
basis for his argument was based on a statute that had been determined to
be unconstitutional and underinclusive.
Activity in related cases (those underlying this case):
Respondents arguments and claims have heretofore been based on
procedural activities, rather than face the real issue of evidence.
Due to the circumstances of the proceedings up to the point of the .
Appeal here, Petitioner first provides the activity to cast a light on the
tactics of Respondents.

I

2

Original COURT PROCEEDINGS
This case has been ongoing for many years due primarily to Ward’s
failures to comply with statutory regulations and unfounded and
unreasonable arguments requiring the guidance of the Supreme Court of
Oklahoma before the case could go forward.
Ward’s arguments throughout have had little or no reliance on
statutes or the law but rather concentrated on misrepresentations of
Knight’s statements and general and repetitive ad hominem remarks.
Arguments in the District Court required consecutive Appellant reviews
ultimately resulting in rulings in favor of appellant allowing the case to
get back to the issues.
Knight initially made two arguments in the District Court of
Cleveland in opposition to Ward’s disputes.
The first defense presented by Ward was that a hand written minute
order by the District Court judge was sufficient despite Knight’s detailed
presentation of applicable and indisputable statutes.
Next Ward continued with the argument that had won a dismissal at
the beginning of this action - that being the case could not go forward due
to a lack of an affidavit from an expert attached to the complaint.
That defense ignored Knight’s claim of unconstitutionality and ambiguity
of statutes.

-m

I

3

Rather than attempt to verify her complaint he answered:
“she seeks to avoid the obvious with claims that are (a)
legally unsupportable and (b) bordering on frivolous.
At the outset one must question how anyone could say,
sans tongue-in-cheek that that this not a professional
negligence case within the meaning of sec 19. Such a
contention defies the English language. Indeed, Defendants
are incredulous that such a frivolous contention could be
made by anyone, lawyer or layperson, given the factual
allegations in the case. ”
Knight’s appeal included in great detail the statutory regulations
governing the procedures to memorialize orders.
In the first appeal:
In spite of Plaintiffs detailed analysis of the statutes showing^the
court’s minute order was not in compliance with statutes Defendants
refused to admit non-compliance.

?*

2/3/2017 df-114172 The Supreme Court agreed with Knight that the %
order, was not in accordance with statutes and was not sufficient as a final

j4

order. That Court remanded the case, but did not rule on the argument

'C

that the order was also unconstitutional
In the second appeal Case 115831:
The next appeal was required to show that the order was predicated on
an argument that had previously been declared unconstitutional by the
Supreme Court.
Appellee again refused to accept the obvious arid continued making
inappropriate arguments.

■

•

•■<.

l.t

4

Although now agreeing Sec 19 had been declared unconstitutional
Ward wrongfully argued such ruling was only prospective. It was not
months later before Ward conceded “inprovidently granted” (terminology
typically related to courts’ review) rather than admit his improper
arguments.
Ward’s answers and objections were pled in the same manner and
style as shown above
Ward’s continued, after remand, to make false and misleading
claims, remarks in the same vein as shown above,
Ward lately exclaimed that this case has been ongoing for years and
it is time to end it, implying that Knight has caused the delay in the
progress of the case rather than his false allegations and the courts
acceptance of them.
The following details the Courts where proceedings were held along
with relevant information including identifying the Judge(s),
ORDERS FILED IN DISTRICT COURT CLEVELAND COUNTY
CG-2012-1540
(Heard in District Court of Murray County)
Order Affirming Defendants request for summary judgment on basis no
expert had been hired and available to then testify and that res ipsa
loquitor could not be urged. Filed 10/01/2018 Aaron Duck-Associate Judge
Order Denying Motion to Reconsider Filed 1/22/2019 Aaron DuckAssociate Judge

•#

1

I

5

Order 6/30/15 (filed 7/15) denying 5/18/2015 reconsideration 6/23/2018
IN THE COURT OF CIVIL APPEALS OF THE STATE OF OKLAHOMA
Opinions in favor of Knight were:
Appeal 8/5/15 Case 114172
2/3/17 As Plaintiff argued, the Summary Order did not comply with the
statutes. We cannot treat the 2013 :”Summary Order” as a final order in
compliance with §§ 696.2 and 696.3 APPEAL DISMISSED AND CASE
REMANDED

Mm

Opinion Jane P. WISEMAN,Judge . CONCUR: THORNBRUGH, and BARNES, PJ
Appeal 3/02/17 Case DF-115831

m-

1/22/18 REVERSED AND REMANDED
Court accedes to Appellees concession that the trial court’s February 7, 2017 order of
dismissal based as it was on the operation of the constitutionally invalid provision of 12fc
O.S. 2020 19 “was improvidently issued and therefore “this matter should be returned?to
the trial court for further proceedings”
JERRY GOODMAN, Judge CONCUR: BARNES, PJ., RAPP, J.-SUMMARY-C/ATTYS
DC JUDGE
October 31,2017 Noted Prejudice
2/26/18 Order reversed and remanded
IN the DISTRICT COURT OF CLEVELAND COUNTY
4/5/18 Reassigned to District Court of Murray

h' -m
s£ »
v.' -r-vigfeu

6

Motion to reconsider denying Motion to Review/Reconsider/Vacate under
Sec 655- 1031 et al was “determined” at a District Court hearing set for Jan
22, 2019 no show defendant. On 3rd request Judge allowed Knight into the
court room -initially stated he ruled in December which was before
response and reply even filed. Thereafter filed Order on 1/22/2019.

• ■ ' Y'

IN THE SUPREME COURT OF THE STATE OF OKLAHOMA Case 117492
Petition in error filed 10/29/2018 - § 1.36 Accelerated Appeal- (No Brief
permitted)
In re: Appeal of Cleveland County District Court-Heard by Sulphur Comity
Assigned to Oklahoma Court of Civil Appeals

'it

117492-1/16/1
IN THE COURT OF CIVIL APPEALS OF THE STATE OF OKLAHOMA &
5/09/2019 Thursday (was mailed to Knight) Opinion on Appeal confirming
District Court Order by Jerry Goodman Affirmed Fischer, P. J. and
Thornburgh, J concur. Apx E
Claim was denied on “failure to satisfy § 651” despite Knight’s statement of
filing under § 655.-inter alia §103Land unconstitutional argument.
Opinion issued 5/9/19 Thursday. Postmark on
5/23/19 Timely Request for Enlargement of Time beyond the due date of
June 1st (Saturday) and Application to Exceed Page Limit to file a Petition
for Rehearing of COCA opinion mailed on 5/9/2019 20 days §2006 & 990) 3
days mail) Apx L and M with Affidavit attached

■"■'•'"is m
■:Cp~ &£

7

Amazingly those were NOT ruled on until 7/11/19 over 5 weeks later!
Constitutes error on court/clerks part. See Apx B
In the intervening period the following activity had occurred in an
effort to overcome the error of the lack of any response to the 5/23
extension request until far after expiration of time to file.
When Knight had not received word about the approval by Friday
the May 31st she started editing the oversized Petition to comply with page
limit and to be able to file on Monday the 3rd (the first day the Court was
open after the due date)
On Monday 06/03/19 COCA filed an order soliciting a response from
Appellee in protest of 5/23 request for extension allowing 15 days to do so.
(purportedly Signed by Judge John Fischer Presiding Judge Div II on May
30th) Apx D
Unaware of the above order, on 06/03/2019 Knight filed the
downsized version of the Petition for Rehearing Apx J- Note: No order has
ever been filed definitively denying this Petition.
6/3/19 In addition Petitioner also filed a Motion to Immediately File
Petition Out of Time in the event it might be questioned as to it’s
timeliness. Apx K
On 6/5/19 Ward filed a protest to Petitioner’s 5/23 filings Apx H
On 6/5/19 Ward filed a Motion to Strike Petition for Rehearing. Apx I

8

6/17/19 Appellant filed a reply to Appellees Objection for Extension and
Pages. Apx G
6/21/19 Appellant filed an Objection to Appellees Motion to Strike Apx F
6/24/19 Never the less Petitioner’s Motion to Immediately file Petition-for
Rehearing Out of Time was denied, signed on June 20th John Fischer
Presiding Judge Div II Apx C
7/11/19 Order denying 5/23/19 Request for Enlargement of Time to file a
Petition for Rehearing beyond the due date of June 1st and Application to
Exceed Page Limit - John Fischer Presiding Judge Div II Apx B
8/2/19 Appellants Applied for Enlargement of time to file a Petition for
Rehearing and a document erroneously entitled F'etition for Rehearing in
an attempt to correct prior Petition for Rehearing (mailed on 31st (20th

■

V. ■

M

Day) Clerk filed 8/2 Friday)

1/15/2020 Mailed by clerk stating the 6/24/19 denial of the request to file
out of time “implicitly denied the Petition for Rehearing” and denying
and striking 8/2 filings. Signed without date by Noma Gurich Chief Justice.
12 O.S. § 1.177(B) Apx A pg 2a
JURISDICTION
Jurisdiction of this Court is invoked under 28 U.S:C. § 1254(1). and is
unaffected b y 28 U.S.C. § 1447(d) because petitioners seek review not of a
remand order by a district court but of the judgment of the court of

.

9

appeals, see, e.g., Aetna Cas. & Sur. Co. v. 2020.Flowers, 330 U.S. 464, 466467 (1947) (citing Gay v. Ruff, 292
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).
An extension of time to file the petition filed on 5/23 but was not
replied to until beyond the original date due or the date including the
mailbox rule on June 3rd, 2019
A timely petition for rehearing was thereafter denied and a copy of
the order denying rehearing appears at Appendix B

■I.

10

STATUTORY PROVISIONS INVOLVED
An abuse of discretion occurs "when the decision is based on an
erroneous interpretation of the law, on factual findings that are
unsupported by proof, or represents an unreasonable judgment in
weighing relevant factors." Okla. City Zoological Tr. v. State ex rel. Pub.
Emps. Relations Bd., 2007 OK 21, % 5, 158 P.3d 461. 464.
The appellant’s brief-in-chief will be deemed to amend the petition in
error to include any additional issues on appeal, so long as the issues were
considered and resolved by the trial court.32 Rule 1.26(b) (citing Jackson
v. Okla. Mem’l Hosp., 1995 OK 112 ^5, 909 P.2d 765
Rule 1.177
Rule 1.13
Rule 6
Section 2006
Section 990(c)

■

%

11

CONSTITUTIONAL PROVISIONS
Exclusion of evidence denied Petitioner’s right to be heard and
affected her "substantial rights" within the meaning of Fed.R.Evid. 103(a).
See United States v. Johnson, 594 F.2d 1253 (9th Cir.1979)), cert,
denied, 444 U.S. 964, 100 S.Ct. 451, 62 L.Ed.2d 376 (1979).
Due process requires notice and opportunity to be heard. The corner
stone of due process of law is fundamental fairness, which includes
amongst other things, both “notice” and “a meaningful opportunity
to be heard”
Knight has claimed a violation of her constitutional rights and denial of access to
the courts in various documents filed in every court.
Indeed, the “right to present a defense is a fundamental
element of due process of law.” Washington v. Texas, 388
U.S. 14, 19, 87 S.Ct. 1920, 18 L.Ed.2d 1019 (1967). Even if the
exclusion does not rise to the level of a constitutional
violation, the burden is on the government to prove that the
error did not have “a ‘substantial influence’ on the outcome.”
United States v. Rivera, 900 F.2d 1462, 1469 (10th Cir.1990) (en
banc) (quoting Kotteakos ( v. United States, 328 U.S. 750, 765,
66 S.Ct. 1239, 90 L.Ed. 1557 (1946)).
57. The Due Process Section of the Oklahoma Constitution
also has an equal protection component. Oklahoma Ass'n for
Equitable Taxation v. City of Oklahoma City, 1995 OK 62, 901
P.2d 800. n. 29, 805, cert, denied, 516 U.S. 1029, 116 S.Ct. 674,
133 L.Ed.2d 523 (1995) ("The same equal protection
component found in the fourteenth amendment of the
United States Constitution is present in the due process
clause of art. 2, § 7.").
The Due Process Clause of the Fifth Amendment to the U.S.
Constitution also includes an equal protection element. See,
e.g., Johnson v. Robison, 415 U.S. 361. 364 u. 4, 94 S.Ct. 1160,
39 L.Ed.2d 389 (1974) ("Although the Fifth Amendment
contains no equal protection clause, it does forbid
discrimination that is 'so unjustifiable as to be violative of
due process.'... Thus, if a classification would be invalid
under the Equal Protection Clause of the Fourteenth

12

Amendment, it is also inconsistent with the due process
requirement of the Fifth Amendment.") (citations omitted).
58. 2003 OK 30, f 12, 66 P.3d 442.
59. See, e.g., Developments in the Law — The interpretation
of State Constitutional Rights, 95 Harv. L. Rev; 1324, 1473
(1982) ("Almost any substantive due process claim may be
translated into an equal protection claim merely by pointing
to some other group not subject to the challenged regulation.
If a regulation does not serve a legitimate purpose — and so
violates substantive due process — applying it to One group
and not to another violates the equal protection requirement
that a legitimate state purpose support a given
classification.") (citations omitted).
H 29 Even though Rule 37(D) gives the trial court authority
to strike a brief just as Supreme Court Rule 1.2 gives
appellate courts the same authority, Rule 37 does not
prohibit the trial court from affording a party the
opportunity to file a subsequent brief? that does comply with
Rule 37, particularly if refusing such a request deprives the
party of any opportunity to have his action considered and
decided on its merits. The Supreme Court has generally
provided the party an opportunity to file a subsequent brief
that complies with the Rules before resorting to striking the
brief. As provided in Minter, the Supreme Court refused to
strike the brief "sua sponte because to do so would deprive
respondent of an opportunity to be heard on the merits of
this proceeding." Minter, 2001 OK 69 at n. 66. 37 P.3d 763.
Furthermore, the Supreme Court in Minter only struck a
reply brief after it reviewed the "brief to determine whether
striking it would violate respondent’s right to due process by
taking from the court's purview an argument which might
alter the outcome of [the] proceeding." Id. at n. 67, 37 P.3d
763.
U 30 Addressing the facts and circumstances in this case, we
conclude the trial court abused its discretion in failing to
grant Admire's request to amend and refile his motion to
vacate to comply with Local Rule 37 as set forth in his
motion to reconsider.^
[283 P.3d 343]

3-

13

The decision was clearly erroneous due to the obvious failure to
consider Petitioner’s evidence and instead rely on Respondents
contentions,-e.g. the allegation they had no documents. In fact,
Respondents objections were disingenuous since they had themselves
procured evidence
STATEMENT OF THE CASE
This case is about the denial of a timely request for an extension of time
to file a Petition for Rehearing by Knight, the lack of a ruling on it until 48
days later, and failure to the court to neither recognize its error&nor

■

%

Knight’s attempts to compensate for such error, and the devastating
consequences that will follow if not overturned.
Truly a case of the time-tested proverb “For want of a naikjthe
...kingdom was lost,” illustrating how one seemingly simple event can|lead
to catastrophic consequences:
Petitioner seeks a writ of certiorari so that the Court can determine the
proper application of the standards of review, and resolve the conflict of
this decision with its own and other United States courts regarding the
application of statutes and law.
Petitioner implores this Court to not simply reject this Petition because
the nature of the “roadblock” presented is one that lower court’s are
expected to judiciously and fairly handle.

*1* ■■ -sci
"J.-

14

The issue for review is not one unfamiliar to every court in this great
land or to any officer of the courts.
INADEQUATE REVIEW BY COCA
In particular this Petition raises a question as why the Appellate review
failed to discover lower court decisions that were arbitrary, clearly
erroneous, devoid of logic and reasoning, and/or not in accordance with
law which resulted in unjustifiable injurious conclusions that defeat the
goals of justice.
The relevant portions of applicable statutes in this matter are:
Commonly referred to as the Mailbox rule

1

Section 2006 - Time
D. ADDITIONAL TIME AFTER SERVICE BY MAIL, THIRD-PARTY
COMMERCIAL CARRIER OR ELECTRONIC MEANS. Whenever a party
has the right or is required to do some act or take some proceedings
within a prescribed period after the service of a notice or other paper
upon the party and the notice or paper is served upon the party by mail,
third-party commercial carrier or electronic means, three (3) days shall be
added to the prescribed period^
SECTION 990A - APPEAL TO SUPREME COURT
Section 990.2 - Post-Trial Motions -

w

I

4

15

C. If the appellant did not prepare the judgment, decree, or final order,
and Section 696.2 of this title required a copy of the judgment, decree, or
final order to be mailed to the appellant, and the court records do not
reflect the mailing of a copy of the judgment, decree, or final order to the

*"

appellant within three (3) days, exclusive of weekends and holidays, after
the filing of the judgment, decree, or final order, all times referred to in
this section shall run from the earliest date on which the court records
show that a file-stamped copy of the judgment, decree, or final order was
mailed to the appealing party, rather than from the date of filing.

%

12 O.S. § 651

i

12 O.S. § 655

5 :£.

12 O.S. § 1.177

■a

X

12 O.S. § 1031
12 O.S. §2006
Appellant believes the failure of the Court/Clerk to respond until 6

V-.‘

i.
■

V

7,

&

weeks past the requested date is at the least extraordinary if not
negligent.
In addition, Ward has impermissibly argued the merits within
protests regarding the extension requests
SUMMARY OF APPELLATE COURT ARGUMENTS HERE & RULINGS

i

16

Although Appellees filed a Motion to Strike the Petition for Rehearing
Appellees did not file a protest of the Motion to Immediately File a
Petition Out of Time filed on the same day.
Instead he stated;
“Despite the fact that Appellant sought an extension of time and
despite the fact that this Court directed Appellee to respond,
Appellant chose to ignore the rules and to await the ruling of this
Court on her request for extension of time, she chose to ignore this
requirement. Such wholesale disobedience of the Rules should not be
permitted and the Petition for Rehearing should be stricken.”
That statement was unfounded. Knight at the time of filing the Petition on
June 3rd had no knowledge that a COCA order allowing, but not ordering,
a dispute had been filed.

2

That response did not therein dispute the appropriateness of the May 23rd -#
extension request, does not provide any rule or statute or precedent that
states a litigant cannot timely file the document that is the subject of the
extension request merely because the request was made. In other words,
the filing of the Petition for Rehearing on June 3rd extinguished the need'
for an extension.
Even more so because the Court, in untypical fashion had failed to timely
respond.
Ward’s charge that Sec 1. 13(a) ruled ignores
“if the due date falls on a non-business day as here (on Saturday) the next
business day constitutes timely filing.”

17

In addition, 1.13(h) does allow an extension request to be filed.
Ward further stated:
“In any event, and should this Court choose to deal with the Petition,
the same should be denied because it states no legal basis to either
rehear this appeal or to reverse the trial court”
Ward cites no rule that requires such statement, nor is Petitioner
aware of any requirement such statement is necessary at the time of
requesting additional time.
That argument has no place in a dispute regarding the approval of
an extension request. Even if true Ward’s conclusory statement includes
no reasoning, statute or law in support of the statement, i.e is
impermissible.
Ward, in dispute to the May 23rd extension requests, cited 113(h) andx
argues that Knight did not make any showing of extraordinary cause while
not challenging any reasons provided in Knight’s request or attached
affidavit.
And finally, in typical fashion, Ward made a totally wild and
unfounded accusation stating:

“Moreover, when considered in light of the concurrent
application to exceed page limit that Appellant intends to
inject factual and/or evidentiary material into this appeal
that is not part of the record” Apx

•.oM&Wfc

18

“The conclusory statement that this Court somehow
misunderstood the issues in this appeal is not just
insufficient to show extraordinary cause, it is erroneous” Apx
Any statement explaining the need for additional pages is relevant since
that is the basis on which the court will rule on the request.
It was inappropriate to attempt to argue his case within an
application for additional time and pages.
Ward did not dispute that the extension would prejudice the case

•>#

nor that the Requests filed on May 23rd had not then been responded to.
INADEQUATE REVIEW BY COCA

♦ V
*1V

In particular this Petition raises a question as why the Appellate review

■

failed to discover lower court decisions that were arbitrary, clearly
erroneous, devoid of logic and reasoning, and/or not in accordance \yith
law which resulted in unjustifiable injurious conclusions that defeati;the
goals of justice.
3*

The Appeals Court (“COCA”), without reservation, affirmed in all
respects the rulings of the district court.

Although Petitioner’s Appeal

attempted to present certain issues under the clear error doctrine and de
novo standard, the Appeals

Court affirmed those findings under the

deferential abuse of discretion very narrowly applied. In addition the
Appeals

court

ignored

several

issues,

either

intentionally

or

unintentionally. In so doing, COCA also ignored rules of the civil court,

4

a

19

contravened and departed from decisions of possibly every court in this
great land.
Bose Corp. v. Consumers Union of United States, Inc., 466 U.S.
485. at 501, 104 S.Ct. 1949, at 1959, 80 L.Ed.2d 502 (1984).
When de novo review is compelled, no form of appellate
deference is acceptable.
The legal maneuvering of the respondents and wholesale adoption by
the lower courts of their conclusory statements, while expedient to clear

€

the docket, has obscured the facts of the case requiring detailed reiteration to disclose the errors in rulings.

'f@r

REASONS FOR GRANTING THE WRIT
This Court needs to resolve confusion over the standards of review vtheir effectiveness, the applicability and adherence to them by the courts.
The question is whether the deference embodied in those standards hasX
permitted, or even encouraged, lower court lack of diligence in the interest of judicial time-saving, both in the appellate courts and below.
What appeal is there if the appealing court defers to the lower court?
1. Without acceptance of Knight’s Petition for Rehearing as timely filed
and/or that good cause existed the errors of the Appeals Court in it’s
ruling on that Petition can never be reviewed and corrected. - This
then has also blocked a review under Certiorari
2. Rule 2006 Extensions

7
-

A

20

Appellant Knight is directed to show cause, not later than August 6, 2019,
why this certiorari proceeding should not be dismissed as untimely
because it appears to have been commenced more than 20 days after the
filing of the Court of Civil Appeals' opinion, order, or denial of rehearing.
12 O.S. Supp.2017, § 990A.
It is common for the reviewing court to make its own determination
and count of the days between date of judgment and the contested
document to determine timeliness and if needed, a determination of good
cause.
.

4*

However, there is no indication that such scrutiny was even considered • ,
let alone undertaken here.
Knight has been unable to anywhere find a case where, as here, a cojirt .
failed to respond to ah extension request until after the original dueidate
(without consideration for the mailbox rule) had already passed.

-

In addition, the Order filed on June 3rd would not, and did not, have
reached her until far too late since it was not mailed until June 3rd at the
earliest.
Appellant believes the failure of the Court/Clerk to respond until
July ll*1*- 48 days past the request date is at the least extraordinary if not
negligent.
It is notable that Wards request for extension on 8-1 was allowed on 8/2.

:r-i

i-

21

114 Legal questions involving the district court's statutory
interpretation of law are also subject to de novo review.
Fulsom v. Fulsom, 2003 OK 96, U 2, 81 P.3d 652. The primary
goal of statutory construction is to ascertain and to apply
the intent of the Legislature that enacted the statute.
Samman v. Multiple Injury Trust Fund, 2001 OK 71, f 13, 33
P.3d 302.
In ascertaining legislative intent, the language of an entire
act should be construed with a reasonable and sensible
construction. Udall v. Udall, 1980 OK 99, K 11, 613 P.2d 742.
Statutory construction that would lead to an absurdity must
be avoided and a rational construction should be given to a
statute if the language fairly permits. Ledbetter v. Oklahoma
Alcoholic Beverage Laws Enforcement Comm'n., 1988 OK 117,
U 7, 764 P.2d 172. The legislative intent will be ascertained
from the whole act in light of its general purpose and
objective considering relevant provisions together to give
full force and effect to each. Keating v. Edmondson, 2001 OK
110, H 8, 37 P.3d 882.

&

&
$■

.m

On Motion to Correct; filed 2/25/2020
Prior to deadline and Knight was unsure whether the Petition was ouf|bf
time but now is sure the Petition filed Monday 6/3 was timely even absent
tile denied extension. (Appellee 8/12 filing pg 2 stated due date was June
1.)
It is unjust for a litigant to suffer for lack of diligence by the court in
following procedures.
1. Although the matter here is one that should not have reached this
Court, it is one that nonetheless has deprived the Petitioner of any
possibility of review of important matters that are of significant

fer­

i

22

importance to this Court and of great significance to multitudes of
litigants that have not heretofore been resolved by this Court.
CONCLUSION
The petition for a writ of certiorari should be granted for each or all of
the reasons stated above to send a message and clarify other matters.
Vtt

Or in the alternative the case should be reversed and remanded.
Respectfully Submitted
s/Judv Knight
Judith Knight
Appearing Pro Se
1010 N Flood
Norman, Ok 73069
1-405-447-1010

Dated June 13th, 2020
£

■li

t

